OIG Investigative Reports Press Release Fresno, CA., 07/22/2013 - Guilty Plea in Financial Fraud Scheme Involving Community Colleges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
Guilty Plea in Financial Fraud Scheme Involving Community Colleges
FOR IMMEDIATE RELEASE
www.usdoj.gov/usao/cae
Monday, July 22, 2013
usacae.edcapress@usdoj.gov
Docket #:1:12-cr-264-AWI
FRESNO, Calif. — Shauna Marie Fabrega, 32, of Palmdale, pleaded guilty today to seven counts of mail fraud in a federal student aid fraud scheme, U.S. Attorney Benjamin B. Wagner announced.
This case is a product of an investigation by the U.S. Department of Education Office of Inspector General. Assistant U.S. Attorney Grant B. Rabenn is prosecuting the case.
According to the indictment, from June 2010 to January 2012, Fabrega recruited individuals to act as straw students and to apply for Federal Student Aid (FSA) funds with her assistance at Bakersfield College, Cerro Cosso Community College, and Santa Barbara Community College. The applicants were not students and did not intend to attend classes. Fabrega also applied for FSA funds in her own name and enrolled herself in courses at the three schools. She was not eligible to enroll in such courses because she was not a high school graduate. In addition, Fabrega obtained identification information from individuals without their knowledge and used that information to apply for FSA funds. As a result, the Department of Education lost more than $70,000.
Fabrega is scheduled to be sentenced on December 9, 2013, by United States District Judge Anthony W. Ishii. The maximum sentence for mail fraud is 20 years in prison. The actual sentence, however, will be determined at the discretion of the court after consideration of any applicable statutory sentencing factors and the Federal Sentencing Guidelines, which take into account a number of variables.
####
Top
Printable view
Last Modified: 07/29/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov